           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  FOLLOW-UP: ASSESSMENT OF THE
  ENUMERATION AT ENTRY PROCESS


    March 2008    A-08-07-17143




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 20, 2008                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Assessment of the Enumeration at Entry Process (A-08-07-17143)


           OBJECTIVE
           The objectives of our review were to assess the effectiveness of the Enumeration at
           Entry (EAE) process and determine the status of corrective actions the Social Security
           Administration (SSA) had taken to address recommendations in our March 2005 report,
           Assessment of the Enumeration at Entry Process.

           BACKGROUND
           The EAE process 1 allows immigrants who are age 18 or older and lawfully admitted as
           permanent residents to apply for an original or replacement Social Security number
                      2
           (SSN) card on the Department of State’s (State) Form DS-230, Application for
           Immigrant Visa and Alien Registration. Once the Department of Homeland Security
           (DHS) admits the immigrant, 3 it electronically transmits to SSA certain data elements
           needed for SSN assignment. Using these data, SSA's Modernized Enumeration
           System (MES) processes the record, assigns an SSN and mails the SSN card to the
           address the immigrant provided to State or DHS. Since EAE’s inception, SSA has
           issued over 380,000 SSN cards to EAE participants. 4 According to SSA’s data, it is
           much more cost-effective to issue an SSN through EAE. In Fiscal Year (FY) 2007, it
           cost about $31 and $4 to process an SSN application at an SSA field office and through
           EAE, respectively. 5

           1
               SSA Program Operations Manual System, section RM 00202.315.
           2
             Requests for SSN replacement cards through EAE are made when immigrants have previously been in
           the United States under a temporary work visa and, during that stay, obtained an original SSN. However,
           since that time, they may have misplaced their card or changed their name or immigration status.
           3
               We use the term “immigrant” to refer to those noncitizens whom DHS admitted as permanent residents.
           4
               SSA’s EAE count is from November 2002 to October 31, 2007.
           5
            For our 2005 review, SSA advised it cost about $24 and $10 in FY 2004 to process an SSN application
           at an SSA field office and through EAE, respectively.
Page 2 - The Commissioner


Our March 2005 report highlighted weaknesses in controls and operations that we
believed SSA needed to address to enhance the efficiency and effectiveness of the
EAE process. SSA agreed to

•   enhance its duplicate record and previously assigned SSN edits 6 to provide greater
    protection against multiple SSN assignment;

•   reemphasize to field office personnel the importance of appropriate enumeration
    feedback message (EM) 7 resolution to avoid multiple SSN assignment;

•   cross-reference multiple SSNs the Agency assigned to immigrants we identified
    during our review;

•   continue to work with State and DHS to provide clear instructions to immigrants on
    SSN attainment;

•   consider providing its handout regarding SSN attainment to immigrants in their
    native languages; and

•   continue to work with State and DHS to resolve data incompatibility issues, including
    name standardization.

To accomplish the objectives of this review, we visited four SSA field offices to learn
how EAE affects SSA field operations. We also reviewed 37 EAE records that MES
could not process (pending records) and discussed possible causes with field office
management. 8 To learn more about DHS’ role in the EAE process, we visited two ports
of entry in California and New York. We also obtained a data extract of original SSNs
SSA assigned through EAE from July 1 through December 31, 2006. For our 6-month
audit period, we identified a population of 44,084 original SSNs the Agency assigned to
EAE applicants. From this population, we randomly selected 250 SSNs to determine
whether SSA assigned multiple SSNs to the same individual. Because of State’s and
DHS’ roles in the EAE process, we will provide copies of this report to the
Inspectors General of those agencies. Appendix B includes a detailed description of
our scope, methodology and sample appraisal.




6
  When SSA’s MES processes SSN applications, it runs “edit routines” to determine whether any
(1) duplicate applications were submitted on the same date and (2) records on the SSN master file contain
applicant information similar to that shown on an incoming SSN application.
7
  When MES cannot process an SSN application because it finds data in SSA’s records that conflict with
the data on the application, it sends the field office an EM the next day. (SSA Modernized Systems
Operations Manual [MSOM] MES 004.001.B.)
8
 We asked each of the 4 field offices we visited to provide 10 pending EAE records for our review.
However, one office only had seven records available.
Page 3 - The Commissioner


RESULTS OF REVIEW
We commend SSA for its EAE initiative and believe it could help strengthen SSN
integrity and assist the Agency in improving its service to immigrants. Although SSA
disagreed with one of the seven recommendations from our 2005 review, it agreed with
and took action on six. However, our current audit determined that weaknesses in
controls and operations identified in 2005 continue. As suggested in our previous
report, we believe SSA needs to address these weaknesses to improve the efficiency
and effectiveness of the EAE process.

We estimate SSA assigned 2,116 multiple SSNs to immigrants through EAE during our
6-month audit period. This figure represents about 5 percent of the 44,084 original
SSNs the Agency assigned to EAE applicants during this time. Furthermore,
immigrants continued to apply for SSNs through EAE and at field offices, resulting in a
duplication of effort for SSA. Additionally, MES could not process 16,053 (11 percent)
of the 147,422 EAE records SSA received in FY 2007 9 because of data incompatibility
issues. Although the EAE process shows significant promise, we believe SSA must
resolve these weaknesses before it expands EAE to other groups of noncitizens.

SSA CONTINUED TO ASSIGN MULTIPLE SSNs TO IMMIGRANTS

During our 2005 review, we projected that SSA assigned multiple SSNs to 11 percent of
immigrants who received an SSN through EAE. We concluded that SSA erroneously
assigned these SSNs because (1) SSA system edits did not identify previously
assigned SSNs or multiple SSN applications or (2) field office personnel improperly
resolved EMs. In response to our recommendations, SSA cross-referenced the
multiple SSNs we identified and issued a reminder to field offices on resolving
                                                                                    10
EAE-related EMs. To address our recommendation to enhance its duplicate record
and previously assigned SSN edits for EAE applicants, the Agency elected to create an
                        11
alert in SS-5 Assistant. This alert prompts SSA employees to search for potential
EAE applications whenever an SSN applicant presents evidence of immigrant status.




9
 Although the audit period for the sample of 250 SSNs assigned through EAE was from July to
December 2006, we chose to review unprocessed records from the most recent 1-year period available.
10
  When an individual submits more than one SSN application to SSA, the additional applications are
considered duplicate records.
11
  SS-5 Assistant is a Microsoft Access-based application that works in conjunction with MES to process
SSN applications.
Page 4 - The Commissioner


Based on the results of this review, we remain concerned about the assignment of
multiple SSNs. Despite SSA’s efforts to address this issue, we estimate it assigned
2,116 multiple SSNs to immigrants who received an SSN through EAE during our
6-month audit period (see Appendix B, Table 1). 12 This figure represents about
5 percent of the 44,084 original SSNs the Agency assigned to EAE applicants during
this time.

Although multiple SSN assignment has declined since our 2005 review, we believe a
5-percent error rate is undesirable, and SSA should make changes in its EAE process.
If SSA does not address weaknesses in its controls and operations and all variables
remain constant, we estimate SSA will assign multiple SSNs to about
21,160 immigrants over the next 5 years. 13 Making EAE less vulnerable to the
issuance of multiple SSNs is particularly important given SSA’s interest in expanding
EAE to other groups of noncitizens.

We have provided SSA with the list of multiple SSNs we identified and requested that it
cross-refer the numberholders’ Numidents. The causes for assignment of multiple
SSNs are discussed in greater detail in the following sections.

System Edits Did Not Identify Duplicate Applications Processed on the Same
Date or Previously Assigned SSNs

In 2005, SSA assigned about 78 percent of the projected multiple SSNs to immigrants
because system edits did not identify duplicate applications processed on the same
date or previously assigned SSNs. Based on the results of our current review, we
estimate SSA improperly assigned approximately 1,411 (67 percent) of the projected
2,116 multiple SSNs during our audit period because system edits did not identify
duplicate applications or previously assigned SSNs (see Appendix B, Estimate 1).

When MES processes an SSN application, it searches for previously assigned SSNs or
duplicate applications submitted on the same day. We found some searches failed
because of variances in the applicant’s names. In one case, the EAE record had a
single first name while the field office-created record had a compound first name. We
believe SSA should enhance its edit routines to include data unique to each immigrant.

Accordingly, we recommend that SSA implement systems changes to propagate alien
registration numbers 14 to the Numident records of all immigrants who apply for SSNs—


12
  None of the immigrants in our sample with multiple SSNs had earnings posted to more than one SSN
record.
13
  We based this estimate on the projected number of immigrants who received multiple SSNs during our
review, and projected it over the next 5 years. Therefore, we calculated our estimate as follows: 2,116 for
6 months X 2 = 4,232 per year X 5 years = 21,160.
14
  The alien registration number is the nine-digit number following “A” that is shown on the I-551,
Permanent Resident Card, and on certain other immigration documents and notices.
Page 5 - The Commissioner


regardless of whether the individuals apply for SSNs through EAE or at a field office. 15
Additionally, the Agency should enhance its system edits to include a search on the
alien registration number. We acknowledge that not all noncitizens applying for SSNs
will have an alien registration number. For example, temporary visitors may only have
an admission number annotated on an I-94, Arrival/Departure Record. However, when
available, we believe propagating the alien registration number to the Numident file
would enhance the Agency’s ability to perform accurate system edits and integrity
reviews. In fact, we believe that, if SSA had used the alien registration number in its
searches, most of the multiple SSNs issued in our audit period could have been
prevented.

Field Office Personnel Improperly Resolved EMs

Our previous review found that SSA assigned about 22 percent of the multiple SSNs
because field office personnel improperly resolved EMs. While our current audit
identified that the improper resolution of EMs by field office personnel continues, we
                                                       16
found fewer instances of incorrectly processed EMs. Based on the results of our
current review, we estimate SSA improperly assigned approximately 705 (33 percent) of
the projected 2,116 multiple SSNs during our audit period because field office
personnel incorrectly processed EMs (see Appendix B, Estimate 2).

SSA instructions for EM resolution require that field office personnel compare Numident
information (name, date and place of birth, gender, alien status, and parents' names)
with the corresponding data on the incoming EAE record to determine whether a match
       17
exists. If field office personnel determine there is a previously assigned SSN, they
should record the Numident SSN on the incoming EAE application, which will cause
MES to issue a replacement card. However, if field office personnel fail to do so, MES
will assign an original SSN.

For the improperly resolved EMs in our current sample, we found that immigrants’ first
and last names and dates of birth on the duplicate records were identical. While there
were some variations in parents’ names or applicants’ places of birth, there was enough
information on SSA’s Numident and the incoming EAE application to clearly indicate the
records belonged to the same individual. SSA representatives reviewed these cases
and agreed that each set of records appeared to belong to one individual. If SSA would
include alien registration numbers on immigrants’ Numidents and use these numbers in
its searches, we believe these data would assist field office personnel in more



15
  SSA records immigrants’ alien registration numbers in MES but only propagates these numbers to the
Numidents of those who apply for SSNs through EAE.
16
  In 2005, there were 27 multiple SSNs identified, 6 of which involved EMs. In our current review, there
were only 12 multiple SSNs, 4 of which involved EMs. Both audit samples consisted of 250 records.
17
     MSOM, MES 004.002 (EM-3).
Page 6 - The Commissioner


accurately resolving EMs. To further ensure accuracy, we recommend that SSA
periodically conduct random reviews of EM resolutions and take appropriate measures
to improve field offices’ processing of EMs.

IMMIGRANTS CONTINUED TO APPLY FOR SSNs THROUGH EAE AND FIELD
OFFICES

Our 2005 review reported that about 56 percent of the immigrants with multiple SSNs
visited an SSA field office within 1 week of entering the country. We concluded that
some immigrants applied for SSNs through EAE and at field offices because the
Agency’s instructional handout (provided to the immigrant at a Foreign Service post)
was not always in the individual’s native language. In response to our
recommendations, SSA and State redrafted the handout to provide clear instructions on
SSN attainment in immigrants’ native languages. In May 2007, State instructed its
Foreign Service posts to provide translated copies of the revised handouts to
immigrants.

Based on the results of this review, we estimate that about 1,234 (58 percent) of the
projected 2,116 immigrants with multiple SSNs visited a field office within 1 week of
entering the country (see Appendix B, Estimate 3). 18 Because our audit period ended
in December 2006, before the date State began issuing the revised handout, we were
unable to determine the impact of the revised handout. Accordingly, we believe SSA
should periodically assess its EAE process to determine whether immigrants continue
to apply for SSNs through EAE and field offices. This assessment should help SSA
determine whether further steps are needed to educate immigrants about the EAE
process.

DATA INCOMPATIBILITY ISSUES CONTINUED TO PREVENT PROCESSING OF
SOME EAE RECORDS

During our 2005 review, we determined that MES could not process 26 percent of the
EAE records SSA received because of data incompatibility issues among the Agency,
State and DHS. We found that State and/or DHS input invalid characters, such as
commas, periods, and blank spaces, mostly in the address fields. As a result, MES
placed the unprocessed records in a “pending” file. However, SSA policy does not
require that field office personnel contact individuals whose SSN applications cannot be
processed. Therefore, many of these EAE applicants would have visited field offices to
obtain SSNs, ultimately defeating the purpose of EAE by increasing field office
workloads and Agency administrative costs. In response to our recommendation to




18
  We determined that 7 (58 percent) of the 12 immigrants with multiple SSNs visited a field office within
1 week of entering the United States.
Page 7 - The Commissioner


work with State and DHS to resolve data incompatibility issues, 19 SSA met with State. 20
In addition, SSA elected to strip invalid characters from the address fields of EAE SSN
applications. However, the Agency did not agree with our recommendation to contact
EAE applicants to resolve pending records.

Based on the results of this review, MES could not process 16,053 (11 percent) of the
147,422 EAE records SSA received in FY 2007. Our analysis of 37 pending EAE
records revealed that 28 (76 percent) failed to process because State and/or DHS input
characters, such as commas, apostrophes, hyphens, and spaces, in the applicant’s
place of birth and parents’ name fields. Had MES processed these applications, we
estimate the Agency could have saved approximately $497,643 in FY 2007, assuming
                                                              21
all immigrants later obtained an SSN through a field office. When we discussed our
finding with SSA systems personnel, they advised us that the nature of the data in
these fields is different from data in the address fields, and stripping the invalid
characters could result in SSA creating incorrect data.

Although the number of unprocessed EAE SSN applications decreased, we remain
concerned that 1 of every 10 EAE applicants cannot obtain an SSN unless they visit a
field office. We believe SSA’s pending EAE records would diminish significantly if State
and DHS would eliminate incompatible data. Furthermore, resolution of the data
incompatibility issue remains important given SSA’s interest in expanding EAE to other
groups of noncitizens. As such, we recommend that SSA continue to work with State
and DHS to encourage those agencies to discontinue input of data incompatible with
SSA’s systems.

We also recommend that SSA review and correct pending EAE applications, and, if
necessary, contact the applicant to do so. Although the Agency rejected a similar
recommendation in our 2005 audit, one field office advised us it successfully processes
most of its pending EAE records. In fact, this office stated that records pending
because of invalid characters, such as commas and periods, could be cleared without
ever contacting the EAE applicant. Given SSA’s commitment to delivering high-quality
service, field offices should attempt to resolve pending EAE applications. We believe
doing so would be more cost-effective than requiring that EAE applicants visit field
offices to obtain their SSNs.




19
  Because this recommendation included that SSA work with State and DHS regarding name
standardization, the Agency stated it implemented a policy change that requires that field offices issue
SSN cards to noncitizens in the name that appears on their immigration document.
20
     Although SSA sent a letter to State and DHS requesting a meeting, DHS did not attend.
21
  We based this estimate on the number of EAE records MES could not process in FY 2007
(16,053), using SSA’s FY 2007 unit cost to process an SSN application at a field office ($31). Therefore,
we calculated our estimate as follows: 16,053 X $31 = $497,643.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We recognize SSA has taken steps to enhance the integrity of the EAE process. We
also realize that SSA must rely on support from State and DHS. Because it is much
more cost-effective to assign SSNs through EAE than through field offices, we believe
EAE should be expanded to include other categories of noncitizens. However,
weaknesses continue to exist in the Agency’s controls and operations, and we believe
SSA needs to address these weaknesses before expanding this process. Ultimately,
the success of SSA’s efforts will depend on the priority it places on improving existing
controls and operations and how successful it is in obtaining assistance and support
from State and DHS.

Accordingly, we recommend that SSA:

1. Cross-reference multiple SSNs the Agency assigned to immigrants identified during
   our review.

2. As soon as practicable, implement systems changes to propagate alien registration
   numbers to the Numidents of all immigrants who apply for SSNs.

3. Once alien registration numbers are propagated, enhance system edits to include a
   search on these numbers.

4. Periodically conduct random reviews of EM resolutions and take appropriate
   measures to improve field offices’ processing of EMs.

5. Periodically assess its EAE process to determine whether immigrants continue to
   apply for SSNs through EAE and field offices. If trends continue, SSA should use
   this assessment to determine further steps needed to educate immigrants about the
   EAE process.

6. Work with State and DHS to encourage those agencies to discontinue input of data
   incompatible with the Agency’s systems.

7. Review and correct pending EAE applications or perform an analysis to determine
   the cost of correcting these applications versus the cost of requiring EAE applicants
   to visit a field office.
Page 9 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations. SSA only partially agreed with
Recommendations 2 and 3. However, we believe the Agency’s response and planned
actions adequately address all of our recommendations.

SSA also provided technical comments that we considered and incorporated. SSA’s
comments are included in Appendix C.




                                            Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology and Sample Appraisal
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
DHS      Department of Homeland Security
State    Department of State
EAE      Enumeration at Entry
EM       Enumeration Feedback Message
FY       Fiscal Year
MES      Modernized Enumeration System
MSOM     Modernized Systems Operations Manual
SSA      Social Security Administration
SSN      Social Security Number




Forms
DS-230   Application for Immigrant Visa and Alien Registration
I-551    Permanent Resident Card
I-94     Arrival/Departure Record
                                                                               Appendix B

Scope, Methodology and Sample Appraisal
To accomplish our objectives, we reviewed the Social Security Administration’s (SSA)
policies and procedures for assigning Social Security numbers (SSN) to immigrants. 1
We held discussions with SSA personnel responsible for enumeration policy and
procedures, systems and operations. We also visited two Department of Homeland
Security (DHS) ports of entry and four SSA field offices in New York and California. We
selected DHS ports of entry and SSA field offices in the two regions with the most
Enumeration at Entry (EAE) pending applications. We interviewed personnel at the
ports of entry to obtain an understanding of their role in SSA’s EAE process. We also
observed DHS personnel interviewing and admitting immigrants.

During our site visits to SSA field offices, we interviewed staff to determine their
knowledge of the EAE process. We obtained data from each office regarding the
number of EAE applications pending in SSA’s Modernized Enumeration System (MES)
as “not complete.” We selected 37 EAE pending records (with status of “not complete”)
to determine why MES was unable to process them.

We also obtained SSA’s MES transaction history file for noncitizens who obtained an
original SSN via the EAE process from July through December 2006. From our
population of 44,084 EAE records, we randomly selected a sample of 250 records to
determine whether SSA subsequently assigned a second SSN to those individuals.

In our 2005 review, we obtained the Department of State’s (State) Form DS-230,
Application for Immigrant Visa and Alien Registration, to determine whether immigrants
provided additional names that were not included in the electronic transmission.
Because State charges a fee for providing copies of DS-230s, we did not obtain them
for our current sample. Instead, we obtained State’s electronic DS-230 file. As a result,
we may have been unable to detect multiple SSNs that would have been identified had
we obtained the paper DS-230s.




1
 We use the term “immigrant” to refer to those noncitizens who Department of Homeland Security
admitted as permanent residents.


                                                 B-1
The SSA entities reviewed were the Offices of the Deputy Commissioners for
Operations, Retirement and Disability Policy, and Systems. We relied primarily on MES
to complete our review and determined the MES data used in the report were
sufficiently reliable given the audit objective and use of the data. We conducted this
performance audit from April through November 2007 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. The following table shows our sample size, results, and
appraisal.

Table 1: Sample Results and Projection on Multiple SSNs Identified

                          SAMPLE ATTRIBUTE APPRAISAL

 Total Population of Original SSNs SSA Assigned to Immigrants via the EAE
 Process from July through December 2006                                      44,084
 Sample Size                                                                     250
 Number of Instances in Sample Where SSA Assigned Multiple SSNs to
 Immigrants                                                                       12
 Estimate of Instances in Population Where SSA Assigned Multiple
 SSNs to Immigrants                                                            2,116
 Projection—Lower Limit                                                        1,233
 Projection—Upper Limit                                                        3,374
 Projection made at the 90-percent confidence level.

We generated the following estimates based on the 12 (5 percent) multiple SSNs
identified in our review of 250 sample cases.

Estimate 1: Estimation of Multiple SSN Cases Where System Edits Did Not
Identify Duplicate Applications on Same Date or Previously Assigned SSNs

Of the 12 multiple SSN cases, we determined 8 occurred because system edits did not
identify duplicate applications on the same date or previously assigned SSNs. Based
on these results, we estimate about 1,411 (67 percent) of the projected 2,116 multiple
SSNs were due to system edits not identifying duplicate applications on same date or
previously assigned SSNs. We calculated our estimate as follows:
8 ÷ 12 = .6666 X 2,116 = 1,410.66 (1,411).




                                          B-2
Estimate 2: Estimation of Multiple SSN Cases Where Field Office Personnel
Improperly Resolved Enumeration Feedback Messages

Of the 12 multiple SSN cases, we determined 4 occurred because field office personnel
improperly resolved enumeration feedback messages. Based on these results, we
estimate about 705 (33 percent) of the projected 2,116 multiple SSNs were due to field
office personnel improperly resolving Enumeration Feedback Messages. We
calculated our estimate as follows: 4 ÷ 12 = .33333 X 2,116 = 705.33 (705).

Estimate 3: Estimation of Multiple SSN Cases Where Immigrants Visited a
Field Office Within 1 Week of Entering the United States

Of the 12 multiple SSN cases, we determined 7 belonged to immigrants who had visited
an SSA field office within 1 week of entering the United States. Based on these results,
we estimate about 1,234 (58 percent) of the projected 2,116 multiple SSNs belong to
immigrants who visited a field office within 1 week of entering the United States. We
calculated our estimate as follows: 7 ÷ 12 = .58333 X 2,116 = 1,234.33 (1,234).




                                          B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 14, 2008                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster
           Chief of Staff  /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up Assessment of the Enumeration
           at Entry Process" (A-08-07-17143)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP ASSESSMENT OF THE ENUMERATION AT ENTRY
PROCESS" (A-08-07-17143)


Thank you for the opportunity to review and comment on the draft report. We are
pleased that the results of this review found that the multiple Social Security number
(SSN) assignment error rate has decreased by more than half, from 11 percent in 2005 to
5 percent for this review. We also agree that addressing weaknesses in the Enumeration
At Entry (EAE) process is important before expansion to other non-citizen groups. Given
the documented progress made since the 2005 report, we plan to continue to concurrently
make improvements while exploring expansion.

We believe the language used to explain estimates 1 through 3 in Appendix B, "Scope,
Methodology and Sample Appraisal” (pages B2 – B3), needs to be revised to more clearly
state that there were a total of 12 cases identified in the study which had multiple SSNs
assigned. As currently written, the information in these sections is misleading as it
appears that there were 12 of these cases identified for each estimate versus 12 total cases
identified during the study.

Our responses to the specific recommendations are provided below:

Recommendation 1

Cross-reference multiple SSNs the Agency assigned to immigrants identified during the
review.

Response

We agree. The cases identified in the report are being cross-referred.

Recommendation 2

As soon as practicable, implement systems changes to propagate alien registration
numbers to the Numidents of all immigrants who apply for SSNs.

Response

We partially agree. We are currently redesigning the Modernized Enumeration System
(MES) to the new Social Security Number Application Process (SSNAP). We will
consider adding alien registration numbers to the Numident for a future release in
SSNAP.

Recommendation 3

Once alien registration numbers are propagated, enhance system edits to include a search
on these numbers.

                                            C-2
Response

We partially agree. Implementation of this recommendation is contingent upon the
addition of alien registration numbers to the Numidents of all immigrants, as suggested in
recommendation 2. Therefore, we will consider including an edit to search records by
alien registration numbers in the new SSNAP if recommendation number 2 is
implemented.

Recommendation 4

Periodically conduct random reviews of enumeration feedback message (EM) resolutions
and take appropriate measures to improve field offices’ processing of EMs.

Response

We agree. Currently, the New York MES Workload Management Information (WMI) is
used to monitor pending enumeration workloads, which includes cases that have received
EMs. The WMI provides an additional level of control over this workload and may be
used to conduct random reviews of EMs.

Recommendation 5

Periodically assess the EAE process to determine whether immigrants continue to apply
for SSNs through EAE and field offices. If trends continue, use this assessment to
determine further steps needed to educate immigrants about the EAE process.

Response

We agree. We also believe a more detailed explanation should be provided to the
applicant by the Department of Homeland Security (DHS) or the Department of State
(State) which makes clear to the immigrant that he/she is applying for a Social Security
number when he/she applies for a visa.

Recommendation 6

Work with State and DHS to encourage those agencies to discontinue input of data
incompatible with the Agency’s systems.

Response

We agree. Compatible input of data would help eliminate a large percentage of the cases
that do not process through EAE. We will identify the specific incompatibility issues and
relay those issues to State and DHS.




                                           C-3
Recommendation 7

Review and correct pending EAE applications or perform an analysis to determine the
cost of correcting these applications versus the cost of requiring EAE applicants to visit a
field office.

Response

We agree. We currently have a process in place (as mentioned in our response to
recommendation 4) for correcting pending EAE applications. In some cases, the
resolution of EMs may require EAE applicants to visit field offices. To clear an EAE
exception, our policy and procedures require the SSN applicant to be present to confirm
all enumeration data that will be passed to the Numident. We will determine if the
system can be modified in a future SSNAP release to enable FO employees to correct
certain pending EAE applications without requiring the EAE applicant to visit the FO; for
example, allowing updates to limited data elements to resolve extraneous characters.




                                            C-4
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
   Kimberly A. Byrd, Director, 205-801-1650

   Theresa Roberts, Audit Manager, 205-801-1619

Acknowledgments

In addition to those named above:

   Kenley Coward, Senior Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17143.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
